GR-40-98-017
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs 
Grants to Encourage Arrest Policies to the
Rockcastle County, Kentucky, Fiscal Court
Grant No. 97-WE-VX-0107
 
GR-40-98-017
August 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of Grant
No. 97-WE-VX-0 107, awarded by the U.S. Department of Justice, Office of Justice Programs
(OJP), to the Rockcastle County, Kentucky, Fiscal Court (Fiscal Court). The Fiscal Court
was awarded the grant as the local governing body; however, actual performance under the
grant was by the Commonwealths Attorney for the counties of Lincoln, Pulaski, and
Rockcastle, Kentucky. Accordingly, references to grant activities in the report will refer
to the Commonwealths Attorney. The purpose of the $137,436 grant was to prosecute domestic
violence cases, specifically, cases involving violence against women. The grant period was
March 1, 1997 through December 31, 1998.

In brief, we found the Commonwealths Attorney:



Leased office space in excess of that required for grant activities. Accordingly, we
      question $4,267 paid for the excess space as unallowable.




Paid budgeted amounts for medical and life insurance for the grant-funded positions
      which exceeded the actual cost of the insurance. Accordingly, we question the excess
      costs, $2,103, as unallowable.




Purchased an alarm system which protected the entire office, but charged the cost of the
      system to the grant. Accordingly, we question the costs not allocable to the grant, $693,
      as unallowable.


These items are discussed in detail in the Findings and Recommendations section of the
report. Our scope and methodology appear in Appendix II.
#####